<html>
<title> - MARS FLYBY 2021: THE FIRST DEEP SPACE MISSION FOR THE ORION AND SPACE LAUNCH SYSTEM?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 MARS FLYBY 2021: THE FIRST DEEP SPACE
                         MISSION FOR THE ORION
                        AND SPACE LAUNCH SYSTEM?

=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2014

                               __________

                           Serial No. 113-66

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
88-136                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
VACANCY
                            C O N T E N T S

                           February 27, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. Scott Pace, Director of the Space Policy Institute, George 
  Washington University
    Oral Statement...............................................    13
    Written Statement............................................    15

General Lester Lyles (ret.), Independent Aerospace Consultant and 
  former Chairman of the Committee on "Rationale and Goals of the 
  U.S. Civil Space Program" established by the National Academies
    Oral Statement...............................................    24
    Written Statement............................................    26

Mr. Doug Cooke, Owner, Cooke Concepts and Solutions and former 
  NASA Associate Administrator for Exploration Systems Mission 
  Directorate
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Sandra Magnus, Executive Director, American Institute of 
  Aeronautics and Astronautics
    Oral Statement...............................................    48
    Written Statement............................................    50

Discussion.......................................................    58

             Appendix I: Answers to Post-Hearing Questions

Dr. Scott Pace, Director of the Space Policy Institute, George 
  Washington University..........................................    80

General Lester Lyles (ret.), Independent Aerospace Consultant and 
  former Chairman of the Committee on ``Rationale and Goals of 
  the U.S. Civil Space Program'' established by the National 
  Academies......................................................    91

Mr. Doug Cooke, Owner, Cooke Concepts and Solutions and former 
  NASA Associate Administrator for Exploration Systems Mission 
  Directorate....................................................   100

Dr. Sandra Magnus, Executive Director, American Institute of 
  Aeronautics and Astronautics...................................   117

            Appendix II: Additional Material for the Record

Submitted statement by Representative Donna F. Edwards, Ranking 
  Minority Member, Subcommittee on Space, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   128

Letter from Explore Mars expressing their support for a short-
  term flyby mission to Mars, submitted by Representative Lamar 
  S. Smith, Chairman, Committee on Science, Space, and Technology   130


             MARS FLYBY 2021: THE FIRST DEEP SPACE MISSION


                 FOR THE ORION AND SPACE LAUNCH SYSTEM?

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:02 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing titled ``Mars Flyby 2021: The 
First Deep Space Mission for the Orion and Space Launch 
System.'' I will recognize myself for an opening statement and 
then the Ranking Member for an opening statement.
    At a fundamental level, space exploration--the mission of 
NASA--is about inspiration. This inspiration fuels our desire 
to push the boundaries of the possible and reach beyond our own 
pale blue dot.
    For years, I have heard countless stories of how NASA 
inspired students to study math, chemistry and physics and 
adults to become scientists and engineers. However, some of 
these same people now feel that NASA no longer inspires them, 
their children or grandchildren.
    Mankind's first steps to the Moon are a distant memory, 
and, with the retirement of the Space Shuttle, NASA now is 
paying Russia $70 million per seat to transport American 
astronauts to the International Space Station. There is a sense 
that America is falling behind, with our best days behind us. 
Today, America's finest spaceships and largest rockets are 
found in museums rather than on launch pads.
    Regrettably, the Obama administration has contributed to 
this situation. Within a few months of taking office, the 
President canceled NASA's plans to return astronauts to the 
Moon, and in its place, the President proposed a robotic and 
human mission to an unnamed asteroid. NASA's own advisory group 
on asteroids derided this plan and said, ``It was not 
considered to be a serious proposal.''
    At a hearing before this Committee, all of the witnesses 
questioned the merits of the proposed mission. While consensus 
on Capitol Hill might be hard to find, there is general 
agreement that the President's asteroid retrieval mission 
inspires neither the scientific community nor the public, who 
would foot the bill.
    So what is an inspiring mission? Maybe a journey to Mars. 
The red planet has long intrigued mankind. A Mars flyby with 
two astronauts onboard NASA's Orion crew vehicle could use the 
Space Launch System that NASA is developing. This flyby would 
take advantage of a unique alignment between Earth and Mars in 
2021 that would include a flyby of the planet Venus. This 
alignment minimizes the time and energy necessary for a flyby. 
Under the 2021 proposal, a trip to Mars would take roughly a 
year and a half instead of two to three years.
    We are not the only Nation interested in extending 
humanity's reach into the Solar System. One of the three major 
space-faring nations will reach Mars first. The question is 
whether it will be the United States or China or Russia.
    Great nations do great things. President Kennedy's call to 
the Nation wasn't just about reaching the Moon, it was a 
reminder that we are an exceptional nation. We must rekindle 
within NASA the fire that blazed that trail to the Moon.
    The future of this Nation's exploration efforts lead to 
Mars. The first flag to fly on another planet in our solar 
system should be that of the United States.
    NASA, the White House, and Congress should consider this 
Mars flyby mission proposal. It will focus NASA's energy and 
talent over the next decade, and most importantly, it will 
inspire our Nation.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    At a fundamental level, space exploration-the mission of NASA-is 
about inspiration. This inspiration fuels our desire to push the 
boundaries of the possible and reach beyond our own pale blue dot.
    For years, I have heard countless stories of how NASA inspired 
students to study math, chemistry and physics and adults to become 
scientists and engineers. However, some of these same people now feel 
that NASA no longer inspires them, their children or grandchildren.
    Mankind's first steps on the Moon are a distant memory. And, with 
the retirement of the Space Shuttle, NASA now is paying Russia $70 
million per seat to transport American astronauts to the International 
Space Station.
    There's a sense that America is falling behind, with our best days 
behind us. Today, America's finest spaceships and largest rockets are 
found in museums rather than on launch pads.
    Regrettably, the Obama administration has contributed to this 
situation. Within a few months of taking office, the President canceled 
NASA's plans to return astronauts to the Moon. And in its place, the 
President proposed a robotic and human mission to an unnamed asteroid.
    NASA's own advisory group on asteroids derided this plan and said, 
``it was not considered to be a serious proposal.''
    At a hearing before this Committee, all of the witnesses questioned 
the merits of the proposed mission. While consensus on Capitol Hill 
might be hard to find, there is general agreement that the President's 
asteroid retrieval mission inspires neither the scientific community 
nor the public, who would foot the bill.
    So, what is an inspiring mission? Maybe a journey to Mars. The Red 
Planet has long intrigued mankind. A Mars Flyby with two astronauts 
onboard NASA's Orion crew vehicle could use the Space Launch System 
that NASA is developing.
    This flyby would take advantage of a unique alignment between Earth 
and Mars in 2021 that would include a flyby of the planet Venus. This 
alignment minimizes the time and energy necessary for a flyby. Under 
the 2021 proposal, a trip to Mars would take roughly a year and a half 
instead of two years to three years.We are not the only nation 
interested in extending humanity's reach into the Solar System. One of 
the three major space-faring nations will reach Mars first. The 
question is whether it will be the U.S. or China or Russia.
    Great nations do great things. President Kennedy's call to the 
nation wasn't just about reaching the Moon, it was a reminder that we 
are an exceptional nation. We must rekindle within NASA the fire that 
blazed the trail to the Moon.
    The future of this nation's exploration efforts lead to Mars. The 
first flag to fly on another planet in our solar system should be that 
of the United States.NASA, the White House, and Congress should 
consider this Mars Flyby mission proposal. It will focus NASA's energy 
and talent over the next decade, and most importantly, it will inspire 
our nation.

    Chairman Smith. I am going to yield the remainder of my 
time to the Chairman of the Space Subcommittee, the gentleman 
from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    The future of human space exploration is one that is 
personal to me. As other space-faring nations expand their 
programs and look to destinations such as the Moon and Mars, I 
consider American leadership in space as a matter of national 
pride but also national security.
    This Committee has been consistent in its commitment to 
human exploration. Yet, over the last decade, the human 
exploration program at NASA has been plagued with instability 
from constantly changing requirements, budgets, and missions. 
We cannot change our program of record every time there is a 
new President.
    My Subcommittee and this full Committee passed a NASA 
Authorization Act last year that calls on NASA to develop a 
steppingstone plan to Mars. We must ensure that future 
exploration endeavors lay the groundwork for an eventual human 
landing on Mars.
    This Committee must also maintain strong support for the 
next-generation deep space vehicles: the Space Launch System 
and Orion crew capsule. I have visited Marshall Space Flight 
Center, which is leading development of the SLS rocket, and I 
have had the opportunity to see SLS engine tests firsthand at 
Stennis Space Center in my own backyard in south Mississippi. I 
believe we are on the right track but we must remain budget-
focused and mission-vigilant.
    I look forward to hearing what our witnesses have to say 
today. Thank you Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Palazzo follows:]

Prepared Statement of the Subcommittee on Space Chairman Steven Palazzo

    Thank you Mr. Chairman and thank you for holding this hearing 
today. The future of human space exploration is one that is personal to 
me.
    As other space-faring nations expand their programs and look to 
destinations such as the Moon and Mars, I consider American leadership 
in space as a matter of national pride but also national security.
    This Committee has been consistent in its commitment to human 
exploration. Yet, over the last decade, the human exploration program 
at NASA has been plagued with instability from constantly changing 
requirements, budgets, and missions. We cannot change our program of 
record every time there is a new President.
    My Subcommittee and this full Committee passed a NASA Authorization 
Act last year that calls on NASA to develop a stepping stone plan to 
Mars. We must ensure that future exploration endeavors lay the 
groundwork for an eventual human landing on Mars.
    This Committee must also maintain strong support for the next 
generation deep space vehicles: The Space Launch System and Orion crew 
capsule. I've visited Marshall Spaceflight Center, which is leading 
development of the SLS rocket, and I've had the opportunity to see SLS 
engine tests firsthand at Stennis Space Center in my own backyard in 
South Mississippi. I believe we are on the right track. But we must 
remain budget-focused and mission-vigilant.
    I look forward to hearing what our witnesses have to say today. 
Thank you Mr. Chairman, I yield back.

    Chairman Smith. Thank you, Mr. Palazzo.
    And if there is no objection, I would like to put in the 
record a letter from Explore Mars expressing their support for 
a short-term flyby mission to Mars to be put in the record, and 
if there is no objection, so ordered.
    [The information appears in Appendix II]
    Chairman Smith. And now I will recognize the gentlewoman 
from Texas, the Ranking Member of the full Committee, Ms. 
Johnson, for her opening statement.
    Ms. Johnson. Good morning. I want to join the Chairman in 
welcoming our witnesses to today's hearing. I look forward to 
your testimony.
    I see that the hearing title asks the question: ``Mars 
Flyby 2021: The First Deep Space Mission for the Orion and 
Space Launch System?'' Given that 2021 is currently the 
estimated date for the very first crewed mission of Orion, 
period--not just its first deep space mission--I would guess 
that the likely answer will turn out to be ``no.'' I doubt that 
a flyby of Mars will ultimately be considered to be an 
appropriate first shakedown flight for the new crewed 
spacecraft given the risks involved in a year-and-a-half trip 
to Mars and back.
    However, I think this hearing does provide a good 
opportunity to again stress that we need a clear, thoughtful 
roadmap for our Nation's human exploration program. Successive 
NASA Authorization Acts have made clear that Congress believes 
that Mars is an appropriate goal for our Nation's human 
spaceflight activities. It is time for NASA to tell us how they 
intend to achieve that goal. What technologies will be needed, 
what sequence of intermediate destinations should be pursued, 
and why, and what are the risks that will need to be addressed?
    We also need to hear from NASA about the progress being 
made on the Space Launch System and on Orion, the two systems 
that are critical to our exploration efforts beyond low Earth 
orbit. What are the challenges they are facing, how will they 
be used to support NASA's roadmap to Mars, and are they being 
adequately funded to meet the milestones laid out for those two 
programs?
    Mr. Chairman, NASA has not been invited to participate in 
today's hearing. That is unfortunate. I would urge you to 
schedule a follow-on hearing with NASA so that we can get a 
status report on the Space Launch System and Orion, as well as 
hear what NASA is doing to develop a strategic roadmap for 
human Mars exploration. We need to hear from NASA if we are to 
properly assess its human exploration program and the funding 
that will be proposed for it when the President submits his 
budget request to Congress next week.
    It will also be relevant for this Committee as we move 
forward on our reauthorization of NASA. Our Nation's human 
exploration program can inspire our youth, advance our 
technological capabilities, and support our geopolitical 
objectives. However, it can only do those things if we are 
willing to keep our commitment to the dedicated men and women 
at NASA and elsewhere who are working hard to carry out the 
challenging tasks we ask them to undertake. As a National 
Academies' panel has observed, and I quote, ``There is a 
significant mismatch between the programs to which NASA is 
committed and the budgets that have been provided or 
anticipated. The approach to and pace of a number of NASA's 
programs, projects and activities will not be sustainable if 
the NASA budget remains flat, as currently projected. This 
mismatch needs to be addressed if NASA is to efficiently and 
effectively develop enduring strategic directions of any 
sort.''
    The long-term goal of humans to Mars, if properly pursued 
and supported, will inspire, will spur innovation, will promote 
international cooperation, and will advance science. In short, 
it is a goal well worth investing in.
    With that, I again want to welcome our witnesses, and I 
yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I want to join the Chairman in welcoming our 
witnesses to today's hearing. I look forward to your testimony.
    I see that the hearing title asks the question: ``Mars Flyby 2021: 
The First Deep Space Mission for the Orion and Space Launch System?'' 
Given that 2021 is currently the estimated date for the very first 
crewed mission of Orion, period--not just its first deep space 
mission--I would guess that the likely answer will turn out to be 
``no.'' I doubt that a flyby of Mars will ultimately be considered to 
be an appropriate first ``shakedown'' flight for the new crewed 
spacecraft given the risks involved in a year and a half trip to Mars 
and back.
    However, I think this hearing does provide a good opportunity to 
again stress that we need a clear, thoughtful roadmap for our nation's 
human exploration program. Successive NASA Authorization Acts have made 
clear that Congress believes that Mars is an appropriate goal for our 
Nation's human spaceflight activities. It's time for NASA to tell us 
how they intend to achieve that goal. What technologies will be needed, 
what sequence of intermediate destinations should be pursued and why, 
and what are the risks that will need to be addressed?
    We also need to hear from NASA about the progress being made on the 
Space Launch System and on Orion, the two systems that are critical to 
our exploration efforts beyond low Earth orbit. What are the challenges 
they are facing, how will they be used to support NASA's roadmap to 
Mars, and are they being adequately funded to meet the milestones laid 
out for those two programs?
    Mr. Chairman, NASA was not invited to participate in today's 
hearing. That is unfortunate. I would urge you to schedule a follow-on 
hearing with NASA so that we can get a status report on the Space 
Launch System and Orion, as well as hear what NASA is doing to develop 
a strategic roadmap for human Mars exploration. We need to hear from 
NASA if we are to properly assess its human exploration program and the 
funding that will be proposed for it when the President submits his 
budget request to Congress next week.
    It will also be relevant for this Committee as we move forward on 
our reauthorization of NASA. Our Nation's human exploration program can 
inspire our youth, advance our technological capabilities, and support 
our geopolitical objectives. However, it can only do those things if we 
are willing to keep our commitment to the dedicated men and women at 
NASA and elsewhere who are working hard to carry out the challenging 
tasks we ask them to undertake. As a National Academies' panel has 
observed:

      ``There is a significant mismatch between the programs to which 
NASA is committed and the budgets that have been provided or 
anticipated. The approach to and pace of a number of NASA's programs, 
projects, and activities will not be sustainable if the NASA budget 
remains flat, as currently projected. This mismatch needs to be 
addressed if NASA is to efficiently and effectively develop enduring 
strategic directions of any sort.''

    The long-term goal of humans to Mars--if properly pursued and 
supported--will inspire, will spur innovation, will promote 
international cooperation, and will advance science. In short, it is a 
goal well worth investing in.
    With that, I again want to welcome our witnesses, and I yield back 
the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson, and I will now 
introduce our witnesses.
    Our first witness is Dr. Scott Pace, Director of the Space 
Policy Institute and a Professor of the Practice of 
International Affairs at George Washington University's Elliott 
School of International Affairs. Prior to his work at George 
Washington University, Dr. Pace served as NASA's Associate 
Administrator for Program Analysis and Evaluation and as the 
Assistant Director for Space and Aeronautics in the White House 
Office of Science and Technology Policy. Dr. Pace holds a 
bachelor's in physics from Harvey Mudd College, master's 
degrees in Aeronautics and Astronautics and in Technology and 
Policy from M.I.T. and a Ph.D. in policy analysis from the RAND 
Graduate School.
    Our second witness is General Lester Lyles. In 2003, 
General Lyles retired as the Commander, Air Force Material 
Command at Wright-Patterson Air Force Base in Ohio. Prior to 
his command at Wright-Patterson, General Lyles served as Vice 
Chief of Staff at U.S. Air Force Headquarters and commanded the 
Space and Missile System Center at Los Angeles Air Force Base. 
General Lyles received his bachelor's in mechanical engineering 
from Howard University and his master's in mechanical and 
nuclear engineering from New Mexico State University.
    Our third witness, Mr. Doug Cooke, is an Aerospace 
Consultant with over 40 years of experience in human 
spaceflight programs. Mr. Cooke retired from NASA after a 38-
year career at Johnson Space Center and NASA headquarters, 
where he served as the Associate Administrator of the 
Exploration Systems Mission Directorate. Mr. Cooke led efforts 
to adopt the current vehicle designs for the Orion and Space 
Launch System. He also had senior leadership responsibilities 
during critical periods of the space shuttle, International 
Space Station and human exploration, human spaceflight 
programs. Mr. Cooke is a graduate of Texas A&M University with 
a Bachelor of Science degree in aerospace engineering.
    Our final witness is Dr. Sandy Magnus, Executive Director 
of the American Institute of Aeronautics and Astronautics, the 
world's largest technical society dedicated to the aerospace 
profession. After being selected to the NASA Astronaut Corps in 
1996, she flew on Shuttle missions in 2002 and 2011 and spent 
four and a half months on board the International Space 
Station. Dr. Magnus followed her work on the ISS and the 
Exploration Systems Mission Directorate at NASA headquarters 
and served as Deputy Chief of the Astronaut Office. Prior to 
her work at NASA, Dr. Magnus worked for McDonnell Douglas 
Aircraft Company as an engineer working on stealth aircraft. 
She holds a bachelor's in physics and a master's in electrical 
engineering from the Missouri University of Science and 
Technology. She earned her Ph.D. from the School of Materials, 
Science and Engineering at Georgia Tech.
    We welcome you all and appreciate your being here and 
appreciate your expertise, and Dr. Pace, we will begin with 
you.

                  TESTIMONY OF DR. SCOTT PACE,

            DIRECTOR OF THE SPACE POLICY INSTITUTE,

                  GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Thank you, Mr. Chairman and Ranking Member 
Johnson, for providing this opportunity to discuss the topic of 
a strategic framework for U.S. human spaceflight, and 
specifically the opportunity of a human flyby and return to the 
vicinity of Mars in 2021, which is only seven years from now.
    A primary challenge to creating a practical and sustainable 
program of human space exploration is not the lack of ambitious 
goals but the difficulties in organizing a practical sequence 
of projects to achieve larger strategic objectives. We also 
know space agency budgets are under great fiscal and political 
pressures and funds to build a large human-capable lunar 
lander, much less support human landings on Mars, are unlikely 
in the next decades.
    Fortunately, the debates of recent years and a literal 
alignment of the planets provides an opportunity to bring 
together several major programs, destinations and policy 
objectives into a sustained effort of human space exploration. 
As you will hear, a sequence of affordable human space 
exploration missions could begin with Orion and SLS flights to 
cislunar space followed by a manned flyby of Mars, taking 
advantage of the 2021 alignment and the SLS. The 2018 window, 
of course, for Mars is even more favorable but the SLS and 
other necessary capabilities are unlikely to be ready in time.
    Following a Mars flyby and the demonstration of the ability 
to reach Mars with humans that is feasible, the United States, 
international and private partners could begin a series of 
human and robotic lunar missions in the 2020s, phasing in as 
the ISS reaches the end of its operational life. These missions 
would build operational experience and demonstrate the 
technologies necessary to eventually land humans on Mars.
    The international consensus in places such as the 
International Space Exploration Coordination Group has 
coalesced around cislunar operations as the next logical step 
beyond the ISS. There are many cooperative ventures that we 
could talk about but the Mars flyby mission serves as an 
interesting bridge, a potential bridge, between where we are 
with the ISS, where we would like to be with Mars and where are 
our international partners and commercial opportunities are 
with human spaceflight beyond low Earth orbit.
    This approach that we are describing is consistent with the 
national space policy and Congressional direction. In a 
constrained budget environment, it allows major program 
elements to be phased in affordably. Conducting the Mars flyby 
in 2021 with a schedule firmly dictated by orbital mechanics 
would drive near-term program planning and decisions on how to 
rationally trade costs, schedule, risk and performance goals.
    We need a vision and a strategy to be a preeminent space-
faring nation. As many know, I have argued for taking a more 
geopolitical and international approach focused on the Moon. 
NASA has rightly said it doesn't have the funds for a lander 
right now. The White House has wrongly said that it is 
uninterested in the Moon and has failed to connect the dots, in 
my opinion, of an exploration strategy that serves broader 
national interests. A Mars 2021 human flyby would, as I said, 
provide kind of a bridge bringing together Mars and lunar 
community and in many ways may offer a faster and more 
efficient way of returning to the Moon.
    Much more detailed programmatic planning is urgently needed 
with respect to a 2021 deadline for a human flyby. Cost 
estimates, risk assessments, architectural trades are needed to 
see whether programmatic phasing and peak funding requirements 
are indeed feasible and supportable, and if borne out, the Mars 
2021 flyby should become a top priority for NASA's human space 
exploration activities after the safe operation of the 
International Space Station.
    I thank you for your attention and I would be happy to 
answer any questions that you might have.
    [The prepared statement of Dr. Pace follows:]

    [GRAPHIC] [TIFF OMITTED] 


    Chairman Smith. Thank you, Dr. Pace.
    General Lyles.

           TESTIMONY OF GENERAL LESTER LYLES (RET.),

                INDEPENDENT AEROSPACE CONSULTANT

            AND FORMER CHAIRMAN OF THE COMMITTEE ON

                    ``RATIONALE AND GOALS OF

                 THE U.S. CIVIL SPACE PROGRAM''

             ESTABLISHED BY THE NATIONAL ACADEMIES

    General Lyles. Mr. Chairman, Congresswoman Johnson and 
Members of the Committee, I thank you for the opportunity to 
speak to you today on issues concerning the nascent human 
spaceflight program. I am a Member of the National Academy of 
Engineers. I specifically chair the Aeronautics and Space 
Engineering Board of the National Research Council, which is 
part of the Academy. The National Research Council was created 
in 1967 to focus talents and energies of the engineering 
community on significant aerospace policies and programs.
    The ASEB works in concert with the NRC's Space Studies 
Board. We work hand in hand, and over the past decade we have 
looked at various studies associated with programs related to 
space exploration and all of the activities that NASA is 
involved in.
    I also was a member of the 2004 President Bush Space 
Commission that looked at the implementation of the United 
States, new United States at the time, space exploration 
policy. I was part of that activity lead by Pete Aldridge, the 
former Secretary of the Air Force, and we came up with some 
very strong recommendations that we think underpin the current 
space exploration program that NASA is currently embarked upon.
    I also had the honor in 2009 to be part of the Augustine 
Committee. Norm Augustine, the former CEO of Lockheed Martin, 
as you well know, was asked by the Administration and by the 
Congress to look at the civil space program and human space 
program for the United States. We were chartered specifically 
not to come up with recommendations but to look at options on 
how we might conduct space exploration for the United States.
    And then finally, I had the honor in 2009 of chairing an 
independent National Academies study titled ``America's Future 
in Space: Aligning the Civil Space Program with National 
Needs.'' The formal task of that commission, rather, was to 
look at the rationale and goals for our civil space program for 
the United States, and we specifically came up with 
recommendations to align our space program to the national 
needs of the United States. Hopefully during questions and 
answers I'll get a chance to elaborate on each one of those 
previous studies.
    I will go back and mention that the Aeronautics and Space 
Engineering Board has not specifically addressed all of the 
questions that you are interested in in this particular 
hearing. However, we have done a lot of things, I think, that 
touch upon the key elements and key concerns and opportunities 
associated with going to Mars, associated with space 
exploration, and certainly associated with the Mars flyby 
opportunity.
    In 2012, specifically, the Aeronautics and Space 
Engineering Board, the National Research Committee and the 
National Academy itself completed reviewing a series of NASA 
space technology roadmaps. We provided NASA with what we 
considered to be a very comprehensive list of technologies that 
need to be addressed if there was going to be any chance of 
getting to Mars even in the year 2030, 2020 time frame. We 
provided that to NASA. They embrace it, as I understand, and 
our recommendations for a technology roadmap are the 
underpinnings for the current technology programs that NASA has 
embarked upon. Those technology roadmaps indicated that there 
are several high-priority technologies that require further 
development in categories such as radiation mitigation for 
human spaceflight, environmental control, life support systems, 
space propulsion, et cetera. It was a very, very comprehensive 
activity conducted over a year-and-a-half time frame, and 
again, it underpins most of the technology programs that NASA 
is currently embarked upon.
    Relative to the Mars flyby task that we are specifically 
looking at here, in my personal opinion, the Inspiration Mars 
proposal provides, I think, an exciting opportunity for our 
space exploration program and certainly for NASA. It certainly 
is one that would provide vision. It addresses many of the 
concerns that each of the studies I participated in was 
concerned with including technology and technology maturation 
but, in my opinion, and based on my experience of 35-1/2 years 
in the Air Force, mostly developing space systems or high-
technology systems, it does have high risk associated with it. 
Scott Pace just described some of the things that need to be 
addressed--looking at cost, looking at risk and looking at 
technologies--but to me it is something that needs to be 
addressed. I think it fits in some respects with most current 
space policy and certainly with the things that were addressed 
in the studies that I touched upon.
    Mr. Chairman, I will stop my remarks there. I have provided 
some specific written comments, and I look forward to your 
question and the opportunity to talk about some of the previous 
studies in more detail in the Q&A. Thank you.
    [The prepared statement of General Lyles follows:]

    [GRAPHIC] [TIFF OMITTED] 


    Chairman Smith. Thank you, General Lyles.
    Mr. Cooke.

              TESTIMONY OF MR. DOUG COOKE, OWNER,

                  COOKE CONCEPTS AND SOLUTIONS

            AND FORMER NASA ASSOCIATE ADMINISTRATOR

          FOR EXPLORATION SYSTEMS MISSION DIRECTORATE

    Mr. Cooke. Thank you, Chairman Smith, Ranking Member 
Johnson and Members of the Committee for this unique 
opportunity to discuss with you the exceptionally important 
need for a space exploration roadmap and specifically how a 
human Mars flyby mission in 2021 contributes to long-term 
exploration goals.
    It is long past due for the United States of America to 
have a cogent, meaningful plan for human space exploration. At 
a time when there is so much potential to make significant 
progress, I am more concerned than ever about the future of 
human space exploration due to the current void in long-term 
direction. We are, in my opinion, in dire need of a strategic 
plan consisting of logical goals supported by tactically placed 
specific missions that lead to landing of astronauts on Mars.
    Logically sequenced missions should address science 
exploration and other objectives. International collaboration 
is essential but the United States must lead. Capabilities and 
technologies should be developed incrementally and paced with 
available budgets. Every mission undertaken and every 
capability developed should contribute to long-term exploration 
objectives. Investments in current NASA human spaceflight 
programs are important, providing a balanced and solid 
foundation for human space exploration including the 
International Space Station, crew and cargo transportation to 
low Earth orbit and the Space Launch System Heavy Lift Rocket 
and Orion capsule. These are the critical building blocks of an 
exploration infrastructure.
    Additional enabling capabilities, technologies and research 
including advanced in-space propulsion, space radiation 
research and protection, cryogenic fuel storage, closed-loop 
life support systems, spacesuits, entry, descent and landing 
technology and others should be the focus of NASA technology 
programs.
    First, we need a long-term roadmap that can gain traction 
through debate and refinement by stakeholders and advocates of 
the various approaches beginning with human Mars-Venus flyby 
mission in 2021, a unique mission opportunity with a free 
return trajectory made possible by the exact Earth-Venus-Mars 
planetary alignment. It is the least complex profile for 
reaching the Mars vicinity. The next comparable flyby 
opportunity is not until 2033. The mission provides an 
opportunity for an incredible first step that will make travel 
to Mars real to the people of the world, demonstrating 
previously unimaginable possibilities in the span of a few 
short years.
    The essential capabilities for such a mission are an SLS 
vehicle with a fully capable upper stage, a habitat with an 
advanced life support system and an Orion capsule with an 
advanced heat shield. A human mission to a large asteroid in 
its own orbit would be achievable with these same capabilities. 
The most logical next steps for the 2020s are mission to our 
own Moon. Space-faring nations including China and Russia are 
all very interested in the Moon. Astronauts would collect 
samples in high-priority locations already identified by 
scientists to learn about the history of the sun, Earth and 
solar system. They will employ certain operational techniques 
and test systems in the hostile lunar environment that will 
prepare for future human Mars surface operations.
    After initial lunar missions, Mars' moons Phobos and 
Deimos, become logical destinations. Missions will require 
efficient propulsion, possibly through evolution of solar 
electric propulsion technology used today, nuclear electric 
propulsion, electric plasma engines or nuclear thermal 
propulsion. Astronauts will be in close proximity to Mars for a 
period of weeks harvesting science samples and operating robots 
on the surface with minimal communication delays. A mission to 
Phobos and Deimos would inspire and prepare us for an ultimate 
landing of crews on the Martian surface.
    A human landing on Mars will require a large lander capable 
of atmospheric entry, surface habitat, nuclear surface power, 
lightweight spacesuit, a rover and other assets. Human missions 
to Mars will be challenging and tremendously momentous as 
astronauts explore the planet most like our own.
    There is a logical progression and meaningful missions. I 
believe Americans will be motivated to support appropriate but 
reasonable budgets that are commensurate with the value of the 
plan and the work needed to accomplish it. We cannot afford to 
delay or prolong the debate because timing is critical to catch 
the unique planetary alignment that makes the first step 
possible in 2021. NASA should seriously consider these concepts 
and challenges and objectively examine how they can be 
accomplished.
    With a long-term plan, we can provide our youth and the 
rest of the world a future marked by technological progress and 
discovery that will inspire all to higher aspirations. In the 
process, we will regain U.S. leadership in space exploration 
with a cadence of achievements.
    I thank you for inviting me. I also want to thank this 
Committee and your staff for your continued leadership in human 
spaceflight. I will be happy to answer questions.
    I do have a short video clip if you have time. It is 40 
seconds.
    Chairman Smith. Why don't we proceed and hear the video 
clip? Is that all right with the Ranking Member? Okay. Yes.
    Mr. Cooke. This video clip will show the mission, the 
mission trajectory starting from Earth, and then show what it 
might look like to go past Venus and Mars. So you will see a 
trajectory path hopefully that gets to the Venus vicinity by 
April of 2022. This is what the crew would look and see--Venus 
as it flies by, not this fast, and then a Mars flyby in October 
2020-2022. They would have about 40 hours of looking at Mars 
when it is at least as big as the Moon is from the Earth, and 
there would be an Earth return in June 2023.
    Thank you, sir.
    [The prepared statement of Mr. Cooke follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. That is great. That is the first time I 
have seen it sort of the practical application of the proposal. 
Thank you, Mr. Cooke.
    Dr. Magnus.

                TESTIMONY OF DR. SANDRA MAGNUS,

                      EXECUTIVE DIRECTOR,

                     AMERICAN INSTITUTE OF

                  AERONAUTICS AND ASTRONAUTICS

    Dr. Magnus. Chairman Smith, Ranking Member Johnson and 
distinguished members. I want to thank you for the opportunity 
to address you today concerning the future of human 
spaceflight.
    I was asked to address the importance of having an 
exploration architecture and strategic framework to guide 
NASA's investments in space. In order to understand how 
important this is, I think we need to examine the trajectory of 
human spaceflight program over the previous decades.
    As we all are very well aware, President Kennedy's famous 
speech to Congress on May 25, 1961, challenged the country to 
land a man on the Moon and return him safely to Earth within 
the next decade. Even though Kennedy's proposal was a noble 
goal, it was just that: a goal. Underlying that goal was 
neither a long-term strategy nor vision let alone political 
consensus for how or what the United States should do in space, 
and because of this view, our space program has since suffered 
in the absence of a long-term strategic vision. We instead 
planned and executed short-term tactical goals outside of a 
larger defined stable framework, and this is the operational 
load we are still working under today.
    So what has been at the heart of the problem of identifying 
and committing to a consistent national long-term strategic 
plan for the United States space program? Unfortunately, I 
believe that part of the problem is buried in human nature and 
our difficulty as humans in focusing in general on the long 
term and coupled with our inherent short-term attention spans 
as the Federal Government turns over at least a fraction of its 
governing structure every two, four or six years and the 
barriers to a long-term consistent strategy become painfully 
apparent.
    It is important to acknowledge these issues and overcome 
them together as we determine the course for our country and 
space for the next few decades. We live in interesting times. 
We find ourselves at a pivotal point where private enterprise 
leveraging off of the foundational and groundbreaking work that 
the government has been conducting for the last five decades 
feels that it understands the risk-reward equation well enough 
to start engaging in activities in low Earth orbit. But 
government has a role that it must continue to play in space 
exploration and utilization. The role of the government is to 
do the hard things: invest in the research and development the 
industry cannot and to take on the tasks and push the 
boundaries the private sector will not. Our strategy should 
consider how do we want the United States to be leveraged for 
future roles in space both in commercial and civil and low 
Earth orbit and beyond. It should not be an ``or'', it should 
be an ``and.'' Our plan, our vision needs to be long term and 
stable in nature and comprehensive in scope, well thought out 
and well-articulated, and most importantly, fully resourced and 
executable. And finally, we need to maintain our long-term 
focused and steadfast commitment to our strategy on the order 
of a decade or so at a minimum.
    So the question being addressed today is, can the Mars 
flyby mission be a candidate for deep space mission for the SLS 
System. I would say it is certainly one of many possible 
missions that could result but once again let me caution you: 
let us not return to the misguided lessons of the past. Any 
mission chosen cannot be done merely with the mindset of 
accomplishing a goal without clearly being tied to an 
overarching strategy. A mission such as the Mars flyby or an 
asteroid retrieval or a lunar base should be put in the context 
of required longer-term strategy. In the context of a coherent 
strategy, the appropriate missions will be defined logically 
based on the requirements developed within that strategic 
framework. The Mars flyby, thus, can only be discussed in the 
context of a larger strategy and the associated missions and 
operational goals.
    I would like to underscore that any plan, whether its goal 
is to retrieve an asteroid, establish a lunar base or send 
people to Mars, is doomed to failure without the resources to 
support it, resources provided in a sustained and sustainable 
manner based on realistic projections.
    NASA has found itself often in a position where it is given 
tasks to perform but then provided inadequate resources to 
fulfill them. Failure to adequately resource such large-scale 
endeavors from the outset inevitably leads to higher costs and 
inefficiencies. We must have a long-term commitment.
    Currently, NASA gets about five-tenths of a percent of the 
U.S. budget. If we are going to be a Nation that has a future 
in space, a nation with a strong strategic plan and the will to 
execute it, five-tenths percent of the national budget is 
simply not adequate. The Nation has some major budgetary issues 
to address. I will not deny that. But the heart of our budget 
problems does not lie in an increasingly small fraction of the 
budget available to discretionary programs like NASA.
    I believe a strong, stable, strategically directed and 
appropriately-resourced space program is vitally important to 
our country. A sustained national commitment to such a program 
will not only benefit our country economically but also will 
serve as a strong motivation for our younger generations to 
pursue challenging and exciting careers in science, math and 
engineering, an intangible benefit but an important one.
    Again, thank you for the opportunity to address this 
Committee, and thank you for your continued support of the 
United States space program. I look forward to discussing this 
issue with you further, and I am happy to answer any questions 
that you may have.
    [The prepared statement of Dr. Magnus follows:]

    [GRAPHIC] [TIFF OMITTED] 


    Chairman Smith. Thank you, Dr. Magnus.
    I will recognize myself for questions, and let me address 
my first one, Dr. Pace, to you, and that is, how does the 
possible Mars flyby benefit from the continuing development of 
SLS and Orion? Are they a good fit for each other?
    Dr. Pace. Well, yes, I believe they are a good fit. I mean, 
one of the things that is the challenge for Mars flyby is of 
course on return, that you are coming in at a very, very high 
speed, so some of the experience from the Orion program 
developed for a lunar return, high speed, is also applicable to 
the high-speed returns you would require from Mars. The size 
and volume of the SLS is also very helpful. Many payloads on 
long-term exploration architectures--Doug Cooke can speak to 
this even better than I can--you wind up being volume 
constrained, so the large volumes than an SLS can place up also 
are very helpful for our lunar and Mars exploration efforts, 
and of course, the propulsion capabilities that the SLS 
provides are really going to be quite impressive, and I should 
note that one of the requirements in here is a high-performance 
upper stage, a dual-use upper stage, to provide the kind of 
trans-Mars injection velocities that you are going to need. But 
if we are going to be a spacefaring Nation, going to the Moon, 
going to Mars, asteroids and other destinations, then a 
workhorse heavy lift capability like this is integrally 
necessary to the Nation to have.
    Chairman Smith. Okay. Thank you, Dr. 
Pace.immovableimmouable? Are we going to be able to stay on 
track with SLS and Orion? What would be required for us to meet 
that deadline?
    Mr. Cooke. Yes, sir. I believe that 2021 is possible if the 
focus is put on getting that mission on our books. I think the 
development of the SLS is well underway. It would take a 
commitment to develop the upper stage in the time frame that we 
are talking about. We would need a small hab, perhaps using an 
existing structure but with advanced life support, which 
actually the Inspirations Mars Foundation contributed money to 
develop in the last year, and Orion would have to get there. 
But there are enough years ahead of us that I believe it is 
definitely possible but obviously you have to focus on it near 
term in order to accomplish it.
    Chairman Smith. Okay. Thank you, Mr. Cooke.
    General Lyles, I appreciate your encouraging comments, and 
wanted to ask you and Dr. Magnus a question, but if I may set 
it up first. Even though you are encouraging, we all recognize 
that there are challenges there to achieving this particular 
mission. There are risks and technological challenges that 
would include, for example, trying to figure out a way the 
radiation would not be as dangerous, carrying sufficient fuel 
and food and water and so on.
    Dr. Magnus, you mentioned JFK's announcement in 1961 about 
getting to the Moon within a decade. He beat that by a couple 
of years. But the point is that when Apollo was announced, no 
one had any idea how to accomplish that mission. The 
technological challenges were almost thought to be 
insurmountable and yet we achieved them. So I guess I don't 
feel like the challenges here are any greater than NASA faced 
in 1961 and yet did a magnificent job of achieving the goal 
that had been set by President Kennedy.
    General Lyles, do you think even though we have these 
challenges, do you think that it is possible that we can make 
the technological breakthroughs, that we can accomplish what we 
need to do in order to meet the 2021 deadline?
    General Lyles. Mr. Chairman, I think my personal opinion is 
yes, we can. I would never underestimate what the American 
spirit can do and American innovation and American interest in 
technology can do.
    My concern, tempered a little bit by experience in looking 
at previous programs, not just NASA programs but Department of 
Defense high-technology programs, you never know for sure 
exactly what you are going to encounter, those unknown unknowns 
to quote one of our former Secretaries of Defense.
    Chairman Smith. Right.
    General Lyles. There was a comment that we made in the 
Aldrich Commission, the President Bush space commission, that I 
think is very applicable here. It was a pay as -- excuse me -- 
go-as-you-can-pay sort of strategy. It was looking at a 
specific goal, whether it is going to a flyby of Mars or 
whatever it might be and making sure that every step that you 
are taking advances towards that goal and being flexible enough 
to take advantage of technological achievements that we can't 
estimate right now or even some technological challenges that 
we probably can't estimate right now. The focus, somewhat like 
Doug Cooke mentioned, is to make sure we have a long-term goal 
and to focus on getting there and not be deterred in terms of 
that is our mission. I think the American spirit is such that 
we can do that but we have to have the focus.
    Chairman Smith. Right. Thank you, General Lyles.
    Dr. Magnus, anything to add? I know you mentioned the 
strategic vision as well as the practical, but do you think we 
can do it?
    Dr. Magnus. Well, I would certainly echo General Lyles. We 
can do anything we put our minds to, and it seems like my whole 
adult life we have been 20 years from going to Mars, and it 
really just comes down to a matter of national will and 
commitment. If we decide as a country that it is important for 
us to go to Mars, we will do that because we will be given the 
community, the resources and things like that.
    But I would like to comment. As we discussed what going to 
Mars means, we have to be aware of, once we get to Mars, what 
are we going to do there. I mean, one of the problems with the 
lunar program, which was a great program, I am not certainly 
implying anything negative came out of that, but we went to the 
Moon and it was like okay, we have been to the Moon, now what, 
you know, we have been there, done that, and we shouldn't go 
back again. So we need to have a big-picture plan. What are we 
going to do? We are going to do Mars and we are going to do X, 
so we just don't go to Mars and then we stop going to Mars 
because we have now been to Mars. So that is why when I was 
speaking about a long-term strategy, that is what I am talking 
about.
    Chairman Smith. The larger vision.
    Dr. Magnus. The bigger picture, our goals, our objectives, 
what are we going to do there, things like this.
    Chairman Smith. Thank you, Dr. Magnus.
    The gentlewoman from Texas is recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    General Lyles, what criteria should Congress use to assess 
the adequacy of an exploration roadmap such that it can garner 
sustained support and funding from successive Congresses and 
Administrations and how can Congress ensure that the roadmap is 
adaptable to evolving technologies tied to scientific 
discoveries and can be a source of inspiration to future 
generations?
    General Lyles. Congresswoman, I think Congress is owed in 
some respect a better definition of what NASA's technology 
roadmap is today. I would mention again the technology roadmap 
that was provided by the National Research Council, the 
National Academy to NASA in 2012, and I think if we look at 
that very closely, it gives you sort of a measure, is NASA 
really focusing on the kind of technologies that the academic 
community has mentioned are the right things to do if you are 
going to advance space exploration. That gives you sort of a 
barometer, if you will, a measuring stick to see if they are 
doing the right kind of things or even if the resources are 
adequate to do that.
    I would also recommend, Congresswoman, the study that I led 
on rationale and goals for our civil space program. We 
specifically titled the report that we gave back what aligning 
the civil space program to national needs. Whether those 
national needs, those greater national needs are energy, 
climate, health, environment, I think is an opportunity to 
ensure that our civil space program even going to Mars as a 
flyby has adjuncts to it that relate to the other greater 
national needs that are of such importance to the citizens of 
the United States, and knowing and understanding that linkage 
is another barometer that Congress can look at to see if these 
programs are indeed not just giving us an opportunity to go to 
Mars but also addressing things that are critically important 
to the United States.
    Ms. Johnson. Thank you very much.
    What is your assessment of the progress being made by the 
SLS and Orion, Mr. Cooke?
    Mr. Cooke. I believe that great progress is being made. As 
I understand it from reports, SLS is ahead of schedule. They 
will have their critical design review this year. There are 
parts, pathfinder parts for the tanks being made as well as 
flight hardware. I think that there is a pathway forward this 
year to get to qualification motor firings for the boosters. 
They have had successful tests of the test motors, very 
successful that were predicted and resulted in--they had 
results right on the money. The Orion vehicle is being worked 
out at the Cape right now down at Kennedy Space Center, getting 
ready for a test flight in, I believe it's planned in September 
at this point. Ground facilities are being modified and gotten 
ready at Kennedy Space Center as well, so the programs, I 
believe, are making very good progress.
    Ms. Johnson. Thank you.
    Dr. Pace, would you like to comment?
    Dr. Pace. Thank you. I guess I don't have anything to add 
to what Doug Cooke has said about the SLS programming. I have 
the same impression that he has in terms of the progress being 
made in terms of people focused on hardware. As we sometimes 
said in NASA, head down, coloring hard. People are working away 
at it.
    What I would like to add is to echo a comment from Dr. 
Magnus on the need for a larger context for all of these 
things. I think that is absolutely true for asteroid retrieval 
missions, it is true for a lunar base, it is true for a Mars 
flyby mission, and I think that the larger context that we are 
often missing is some of our national security and our foreign 
policy interests in civil space cooperation. Civil space 
cooperation is not something done just for fun or even just 
only for inspiration, as important as that is. It is also a way 
of drawing other countries to us and having them work and 
cooperate and participate with us. We as a country are more 
dependent upon a peaceful, quiet and stable space environment 
than any other nation in the world. There are many, many new 
players coming into the world who are active in space and many 
of them don't have the kind of experiences that we have.
    So how do we bring them into the community of spacefaring 
nations, to act in responsible ways? Getting them involved in 
cooperation, getting them involved in caring about having a 
peaceful and stable space environment is something that I think 
is deeply in our national security and foreign policy interest. 
So to the extent that we can create cooperative opportunities 
on the Moon, Mars, asteroids that provide opportunities for 
other countries to work with us, we will be protecting our own 
national security and that is a long-term geopolitical interest 
this country will have.
    President Kennedy met a short-term geopolitical interest 
with his lunar decision. We have, I think, an opportunity to 
serve our long-term national security and geopolitical 
interests with a program of space exploration.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, the Vice 
Chairman of the Committee, is recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
when I first heard about this concept of the flyby with Mars, 
human flyby, it was presented to me by a man who I deeply 
admire, Dennis Tito, who is a man who has inspired many, many 
Americans with his own courage and his own vision accomplished 
years ago and then over the years has been very, very creative 
in his approaches to space. But one of his first -- and it was 
a great idea, but his proposal to me was -- and to us was a 
project that was fully funded by the private sector, and now 
all of a sudden it is not funded by the private sector anymore. 
It is the same mission but now it is going to come out of the 
public sector money. And while I thought it was a great idea, 
people were willing to take the risks and spend the money in 
the private sector, I think this is a foolhardy use of very 
limited government resources as compared to if private people 
want to put their money up.
    General Lyles, good to see you again, sir. Always great to 
see you.
    And you talked about 35 years in the Air Force and how you 
understood high risk that is associated with various projects. 
There is a very high risk associated with this, is there not?
    General Lyles. Congressman, yes, there is----
    Mr. Rohrabacher. Yes.
    General Lyles. --whether you are talking the technology 
itself or even from a policy perspective and certainly the 
funding aspect of it.
    Mr. Rohrabacher. The--both the technology end of it, both 
the funding end of it, and both the actual accomplishing the 
mission is just--there are many, many risks, a lot more risks 
than other things that we might accomplish in space with the 
limited dollars that we have if we expended those dollars 
toward those other goals. Isn't that the case?
    General Lyles. Congressman, I would not disagree with that 
but I think that is one of the reasons why I think it is very 
important to look at how that particular idea, a Mars flyby, 
could be linked to other things that we are already doing. The 
program that we are currently embarked upon, whether you call 
it asteroid retrieval or whatever the right title is, there are 
aspects of the technology we are developing for the current 
program, obviously SLS, Orion, that could be applied to a 
mission such as the flyby. I am not quoting a specific time----
    Mr. Rohrabacher. Right.
    General Lyles. --so I think it could be linked to other 
things.
    Mr. Rohrabacher. Well, but that is just for the Space 
Launch System, undo other things. General, when we are talking 
about the risk, what would you say? Would you--if you had to 
put your own money into this, let's say you had to bet your 
mortgage money, would you bet your mortgage money on the 
success of this mission?
    General Lyles. Congressman, my money wouldn't get us very 
far, probably at all. But the answer is right now in terms of a 
vision, innovative idea, I like it. In terms of understanding 
all the risks, I would be reluctant to put my own money into 
that until I better understood what all the challenges are.
    Mr. Rohrabacher. Well, thank you very much being very frank 
with us on that.
    And, Dr. Pace, the--you just mentioned the cooperative 
efforts, how important that is and for all nations to 
participate. Are there any other nations involved with putting 
money into this project?
    Dr. Pace. No.
    Mr. Rohrabacher. Okay. That is it. Thank you. I appreciate 
that. There isn't.
    Mr. Cooke. Could I----
    Mr. Rohrabacher. That is correct. There are not. And----
    Mr. Cooke. Could I add one thing?
    Mr. Rohrabacher. Yes.
    Mr. Cooke. There were initial conversations on the 
possibility of contribution of a habitat structure. I mean 
obviously all those kind of things have to----
    Mr. Rohrabacher. Right.
    Mr. Cooke. --play their course, but there have been some 
initial discussions----
    Mr. Rohrabacher. Okay.
    Mr. Cooke. --internationally.
    Mr. Rohrabacher. There are some discussions. All right. 
When we go from some discussions to actually commitments, so 
there is a lot of space between those two.
    Now, let us note that this is a mission that has to be 
accomplished in seven years. I mean we have to do this within 
that seven-year period. All of these factors have to be 
together. And then the technology has to work, and I think 
isn't this mission the very first mission that an SLS is going 
to have and it has got to happen within that seven year period? 
Would you like to give us your estimate as to--guesstimate as 
what the chances of--I mean you have followed programs. How 
many have really met their deadline in last few years? Yes?
    Dr. Magnus. I am sorry. I wasn't aware you were addressing 
it--well, I think, again, if we really wanted to do this and we 
committed to do it, we could do it, but that means it has to be 
fully resourced with the appropriate manpower and money----
    Mr. Rohrabacher. Now, when you said----
    Dr. Magnus. --and everything else.
    Mr. Rohrabacher. --the word--the most important words you 
use and you used when you testified was the word ``can'' and 
``could.''
    Dr. Magnus. Yeah.
    Mr. Rohrabacher. That is a lot different than ``will.''
    Dr. Magnus. Exactly.
    Mr. Rohrabacher. And the fact is that do you really see 
that the--right now that there is a commitment in this country 
so that we don't start down this trail, spending a lot of money 
and then at the end of the trail not an accomplished mission 
because the will wasn't there?
    Dr. Magnus. Yeah, that is the big problem. We don't have a 
really strong commitment for a long-term vision for our space 
program----
    Mr. Rohrabacher. So we don't have it now but we should move 
forward on this even though we don't have that? Well, now----
    Dr. Magnus. If you recall in my testimony, I commented that 
any mission that we do, whether it is a lunar mission or an 
asteroid mission or the Mars flyby all needs to be in the 
larger context of what are we trying to do long-term as a 
country in space----
    Mr. Rohrabacher. Yeah----
    Dr. Magnus. --and we need to make that plan----
    Chairman Smith. The gentleman's time has long since 
expired.
    Mr. Rohrabacher. Give the gentleman just----
    Chairman Smith. And----
    Mr. Rohrabacher. --10 seconds, and that is just to say 
there are many great space projects that we need to fund.
    Dr. Magnus. Um-hum.
    Mr. Rohrabacher. There are many of them and this----
    Chairman Smith. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Not funding this would mean--not that we 
are retreating from space.
    Chairman Smith. And the gentleman from California, Dr. 
Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman. And thank you, Ranking 
Member, for calling this important hearing today.
    You know, I think we have done our job as Congress and as 
this Committee and Subcommittee really codifying this 
commitment to future deep space exploration and we want to see 
that happening. I think in the opening remarks by the Chairman 
and Ranking Member, as well as the opening remarks for all the 
witnesses, there is a consistent theme here. We need a vision 
and a strategy. And, Dr. Magnus, you talked about having this 
broader strategic vision, you know, where do we want to go and 
then setting concrete goals. And I couldn't agree with you 
more.
    I mean I grew up in a time--many of us grew up in a time 
when we were curious. We set goals. We didn't how we were going 
to get to that goal. You invoked President Kennedy setting out 
that goal. We grew up in a time where we talked about what we 
could do as Americans. General Lyles, you talk about if we want 
to do this, we can do it. We don't shy away from that 
challenge. In fact, we can meet that challenge if in fact that 
is what we want to do. So we have got to set that goal.
    We have had the opportunity to meet with Administrator 
Bolden a few months ago again expressing this commitment to 
set--for NASA to set a goal, for the Administration--the 
President to set a goal. We are working--with this Committee we 
have drafted a letter to the President because we want to see 
that commitment. We want to see a clearly articulated strategy 
from the President that says here is what we are going to do, 
here is the time frame we are going to do it in, and here is 
how we are going to get there. We need that as a time frame.
    Dr. Pace, you touched on this is just not about going to 
Mars. It is in our geopolitical and national security interest 
to also, you know, continue to reaffirm our commitments and 
our, you know, leadership in space because it is increasingly a 
national security issue. It is increasingly a geopolitical 
issue. With that, I look forward to working with our Committee 
and Subcommittee as we push the President to clearly articulate 
a commitment to deep space exploration.
    With that, let me ask, you know, some of my questions. Dr. 
Magnus, I agree with you wholeheartedly that we have to have a 
strategy here and that we have to have clearly defined goals. 
What would you articulate as the President were sitting right 
here, what that strategy should be?
    Dr. Magnus. Well, clearly, there has been enough discussion 
around Mars that the consensus in the community is that is our 
ultimate place to go. I think we still need to flesh out the 
what are we going to do when we get there and what is going to 
be our sustaining effort on Mars? Are we going to set up a base 
and have people visit it occasionally? What kind of science are 
we going to do? What kind of technology do we need to develop 
there to move even further beyond? So I think we still need 
some discussion about that.
    But in that context, then, I think the questions you need 
to ask are what the kind of--what technology needs to be 
developed, what capabilities are important for our country to 
develop versus how we might leverage international cooperation, 
because I think it will be an international effort so we have 
to look strategically at the capabilities and the technology 
and the types of experience we want our country to lead in and 
then build that into the plan. Then we have to look at where we 
are from an industrial viewpoint, how we want to leverage the 
architecture to continue the utilization of low Earth orbit, 
and then what series of missions do you use to build up these 
capabilities and demonstrate them to reduce the risk of going 
to Mars? And those are the questions that would frame that 
plan.
    Mr. Bera. Fabulous. In a matter of 30 seconds you have laid 
out a strategy, a goal, and some steps to reach that long-term 
goal.
    Part of this also is all the additional benefits we get 
when we stretch our goals. I am a physician by training. I can 
think of innumerous medical benefits as we deal with how we are 
going to deal with the radiation risk, how we are going to deal 
with the subzero temperatures and so forth. And there are tons 
of applications that are going to come off of this, tons of 
jobs that will be created off of this.
    So, again I wholeheartedly encourage the President and 
again with this Committee and look forward to working to push 
the President to clearly articulate what that strategy is, that 
goal is so then we can do our job in Congress working towards 
hitting that goal.
    And again, I would say we are country that doesn't shy away 
from challenges. If we set a goal and we clearly articulate 
that goal, I think to quote General Lyles, never underestimate 
what the American spirit can do. And I wouldn't. If we want to 
do this in seven years, we will do it in seven years, but let's 
actually make that commitment. Thank you. I will yield back, 
Mr. Chairman.
    Chairman Smith. All right. Thank you, Dr. Bera.
    The gentleman from Mississippi, Mr. Palazzo, is recognized.
    Mr. Palazzo. Thank you, Mr. Chairman.
    It has often been said that space exploration is a ``go as 
we can afford to pay'' endeavor. No bucks, no Buck Rogers. 
Congress has consistently provided more funding for the Orion 
and Space Launch System than the Obama administration has 
requested over the past several years. Congress has placed a 
higher priority on human spaceflight than the Obama 
administration. The current schedule for NASA's first manned 
flight is 2021 on the Orion and SLS, but that is based on the 
President--on President Obama's budget plan, not the higher 
budget level that Congress has authorized and appropriated over 
the past several years.
    So my question for Dr. Pace is in terms of affordability 
for a Mars 2021 flyby or other space exploration endeavors like 
a return to the Moon, it is about setting budget priorities. In 
your opinion, what priority has the Obama administration's 
budget proposals given to human spaceflight compared to other 
priorities for NASA?
    Dr. Pace. Well, I think there has been a decline in the 
overall NASA budget certainly over the last several years. It 
has been quite volatile. The top line has vibrated quite a bit 
and exploration monies have declined. So monies have shifted 
over into other priorities, certainly climate change research, 
technology work, all of which are perfectly reasonable and 
important things to do, but human space exploration has seen a 
long-term decline.
    But even more critical than the money I think has been the 
lack of a sense of, well, what do you do next? For example, 
what comes after the space station? What are the next steps 
that we are going to engage with other countries in?
    I generally have a very positive view of the President's 
national space policy, which by and large I think is a very 
well-written and thoughtful document. The section of it that I 
disagree with is one on exploration because I don't think it 
sets out a clear set of milestones; it doesn't set out a clear 
set of priorities. So it is understandable that the monies that 
NASA does get often get diverted into other things other than 
human space exploration because the national policy itself 
doesn't really clearly articulate what those priorities ought 
to be.
    Mr. Palazzo. Mr. Cooke, in your assessment, approximately 
how much more money would be needed beyond the President's 
budget plan to accelerate the first crewed flight on the Orion 
and how much more money would be needed to meet the 2021 flight 
to Mars?
    Mr. Cooke. I would say at this point there is more work 
that needs to be done on the 2021 mission. A fair amount of 
work did go into studying the technical aspects of the 2018 
mission by the Inspiration Mars Foundation. I think that 
questions should be asked of NASA to go look at this mission 
seriously and get to an understanding of what it takes, along 
with taking advantage of the work that has been done in the 
2018 mission. But to my knowledge there has not been a detailed 
cost analysis of this. I would hesitate to state a number.
    But I would say that the directions that would be taken in 
terms of developing the large upper stage for SLS is what is 
needed long-term. There are synergies that can be brought into 
that because of the work currently going on in the core stage 
of the vehicle in tooling and actually in the design process. 
The--there are structures that can be used for the habitat. 
There is work that has gone on, on a more advanced life 
support, which is important for this flight, and the Orion 
vehicle was designed for missions beyond Earth orbit.
    So I believe there are steps that are not unreasonable and 
could--with a commitment--as has been discussed, with a 
commitment, I think it is a reasonable approach, but the 
mission needs to be looked at in the terms, once again, of a 
long-term plan so we know how it feeds forward. And I believe 
it does.
    Mr. Palazzo. Thank you.
    Dr. Magnus, as a former astronaut and Deputy Chief of the 
Astronaut Office, as well as an accomplished engineer and 
Executive Director of the world's largest technical society 
dedicated to the global aerospace profession, how would a Mars 
flyby mission be perceived by those individuals responsible for 
designing and flying such a mission? And understanding that you 
do not officially speak for them, would astronauts be 
comfortable with the risk posed by such a mission?
    Dr. Magnus. Well, I can state quite frankly any mission 
that you can come up with that sends people into space, you 
will have plenty of volunteers to go. That is unquestionable. I 
mean there are people signing up to go one way to Mars 
regardless of the definition. That is the pull of spaceflight. 
That is the pull of space exploration on everybody.
    Now, as an experienced astronaut, the questions that I 
would ask at this moment where the mission definition is coming 
together is what exactly does the life-support system look 
like? You know, how were--how is it working? What kind of 
redundancies are you going to have? The radiation question is 
still a big question, understanding--we are getting some data 
from Curiosity of course in its traverse. And even currently I 
would want to understand a little bit more about how we are 
going to design to fix the radiation problem.
    And then after I came back, if I was going to be exposed to 
a lot of radiation and accept that as a risk, what were you 
going to do to take care of me long-term if ten years from now 
some weird thing happens to my body? I would ask those kind of 
questions.
    I would also ask, as someone who is going to be an operator 
on a mission like this, what am I going to do during the 
mission itself? There is a lot of work to do on the Space 
Station. We are extremely busy on the Space Station. We do have 
time to relax and sort of decompress a bit. And you guys have 
very challenging work schedules here and I think you understand 
that when you are busy, time is flying by. You are feeling like 
you are very useful and you are contributing to something. But 
if you are sending two people to Mars on a flyby, they are 
going to need something to occupy their time. They are going 
to--so I would want to know what am I going to be doing during 
the mission as well?
    I would want to understand the systems and the mission 
parameters. You know, you are asking me to take this risk and 
what are we going to get out of it? What is the goal? What 
context is it in? What comes next? How does this work into the 
bigger plan? So these are the kind of questions that I would be 
asking.
    Mr. Palazzo. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Palazzo.
    The gentlewoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. Thank you, Mr. Chairman, and to the Ranking 
Member and to the witnesses today for your testimony.
    I have to say it has been interesting to listen to the 
concerns that have been expressed about the budget because, of 
course there were people who were perfectly prepared to see 
NASA operate under sequestration levels that would certainly--
would never get us to an overarching vision to make our way to 
Mars and back. And so I am glad that we have tried to change 
this conversation a little bit and look realistically at what 
it is that the space community needs to do, the scientific and 
research community, but also NASA.
    I have been really--and I am, Dr. Magnus, one of those 
people who would probably certainly volunteer to leave this 
committee and the Congress and go to Mars and not return, but 
nonetheless, I do think that there are some questions that we 
need to answer and I think, Dr. Magnus, you have laid those out 
quite well.
    I am really--I am curious as to what you all think the 
Congress needs to do in terms of directing NASA in terms of a 
timeline to provide a roadmap that would be reasonable then if 
we were to proceed along this goal to 2021 and then into the 
2030s. So do we need to be more directive in terms of asking 
for something back from NASA by a date certain? And do we need 
to say to the Agency you and who else around the table should 
come up with the roadmap and the plan?
    My fear is that it might be left to Members of Congress who 
have no real scientific expertise at all to be able to 
determine whether it is the Moon or a Lagrangian point, the 
International Space Station, or an asteroid that makes most 
sense for precursor missions to get us on our way to Mars. And 
so I would hate to leave it to us to do that, and I would like 
you to help me think through who needs to be around the table 
and by when do we need something so that we can begin the kind 
of planning that we need for budgets and programming.
    So any of you, if you have some comments about that.
    General Lyles. Congresswoman, let me just take a quick stab 
at that if you will from perhaps a little different perspective 
than some of the other witnesses might espouse. I would hope 
that the Congress would look at NASA as an agency from an 
enterprise perspective, and by that I mean when I go back and 
look at President Bush's original space exploration program 
that was laid out and the Commission that I served on as part 
of that, we looked at the broader sense of space exploration. 
Even the space policy, the new space policy that Scott talked 
about looks at space in a holistic sense. Human spaceflight is 
just one element of that and I would hope that the Congress, 
when considering budget needs and budget concerns for the 
Agency, would look at the broader context of space exploration 
and even if I add for the first A in NASA, the aeronautics 
needs for this Nation and look at it from a broad sense of 
understanding how all of those contribute to the needs for the 
United States, whether it is addressing other national needs, 
as I mentioned earlier, whether it is addressing the broad 
needs of space exploration, but look at it all in a holistic 
manner, not just human space and going around Mars.
    Ms. Edwards. Thanks, General Lyles.
    Dr. Pace?
    Dr. Pace. Thank you. I would actually say that the 2010 
NASA authorization bill, certainly at the policy level in terms 
of framing what the Congress' priorities are, is really quite 
good. I mean I would personally like to see some of that 
language maybe incorporated into the national policy. So in 
terms of a philosophy and a priority, I think that is already 
there.
    I think we know some of the constraints that bound the 
analysis that NASA would have to do, continuing the space 
station through 2024, the capabilities of SLS and Orion being 
available. We know the international community longer term is 
interested in Mars, but we also know the international 
community in the near term has coalesced around cislunar space. 
The global exploration strategy, the technical discussions that 
the international space exploration coordination groups have 
done, they all see cislunar space as an area that is 
challenging but reachable for them to do. So those major 
pieces--space station, Mars, the cislunar space operations, 
where the international community is--those major pieces are 
actually all largely in place. So the analysis that needs to be 
done is more at the cost, schedule, and risk standpoint, which 
I think is within what NASA can do. And if you add----
    Ms. Edwards. So when should we expect something like that 
back so that we can begin to act on it?
    Dr. Pace. I think if you ask--if you tasked NASA to 
generate some architectural trades like that and they put some 
series of efforts into it, I think on the order of a few months 
would be perfectly reasonable. Tons of these architectural 
works have already been done. Doug Cooke has done and read most 
all of them. I would be hard-pressed to think of one he hasn't 
read. And so the material and information is there. I think it 
is really the cost and the budget analysis and programmatic 
phasing of what is sustainable is really the most--biggest 
uncertainty.
    Ms. Edwards. So is it a matter of simply giving NASA a 
directive and a time frame so that we can then begin on the 
process----
    Dr. Pace. With some clear constraints and that if certain 
requirements can't be met or certain budget caps and whatever 
can't be met, then a prioritization of what you relax, so a 
sense of priorities in order for programmatic management trades 
to take place.
    Ms. Edwards. Thank you.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentleman from Illinois, Mr. Hultgren, is recognized.
    Mr. Hultgren. Thank you, Chairman. Thank you all for being 
here. I appreciate so much your work and this important topic 
of really creating vision for our future. I especially want to 
thank my fellow Illinoisan, Dr. Magnus, for her amazing work 
and amazing story. I just love reading your biography and all 
that you have done. So I appreciate you being here and 
appreciate your great work.
    I want to address my first question to Mr. Cooke. In your 
written testimony you say that a long-term plan should be 
adaptable based on discoveries and budget realities. In order 
to provide consistency to long-term goals, the Committee has 
passed the NASA Authorization Act. It calls for the exploration 
roadmap to be updated every four years. I wonder should the 
plan change more often than that or do you think that risks and 
leads to instability?
    Mr. Cooke. Well, I think it depends on what level of change 
you are talking about of course, and I think it is valuable to 
ask for an update on a regular basis. I believe that if 
discoveries are made that are really profound, that we will all 
be talking about it when that happens. And those are the kind 
of things I am talking about.
    The Mars Science Program is an example where they have had 
roadmaps for years and they adapt almost after every mission 
because they make discoveries and it points new directions. It 
doesn't mean that you want to throw away everything that you 
are doing in terms of an infrastructure. You want to understand 
this long-term plan such that it is adaptable. You want to have 
the heavy lift rocket on the front end. That is a critical 
first step, the capsule you need no matter what. But I think a 
long-term plan helps guide you in what your infrastructure is. 
You can, as you go along, foresee some changes. But I think it 
all can be done if you keep in mind that the flexibility should 
be there.
    Mr. Hultgren. So just to clarify, for our responsibility, 
would you endorse flexibility to be written into its design 
that allows for updates on an as-needed basis? And I wonder if 
you could just talk quickly about how could a Mars flyby fit 
into that type of roadmap?
    Mr. Cooke. Yes. And--so I do believe that there should be 
flexibility, as I said. And in my written testimony I went into 
a lot more detail than I was able to do in five minutes on all 
of this. And, in fact, back in May I testified and put together 
how you might go about putting together a long-term plan.
    I believe that the Mars flyby mission does fit. I mean I 
can view a series of steps I outlined very quickly here, but I 
can view a series of steps that builds capabilities as you go, 
and each step contributes to the next step and builds on what 
has already been done. The Mars flyby mission, in my view, 
brings the Space Launch System capability up to a level of 
performance that will be needed longer-term than the initial 
test flight capability.
    I believe that the life-support system in a small hab is 
usable. If there are to be asteroid missions, you can use it--
you would want it in going to an asteroid. It would be valuable 
in cislunar space. That is a capability that has long-range 
benefits. Then bringing the Orion capsule to its full 
capabilities is beneficial for a series of missions and a 
roadmap----
    Mr. Hultgren. Let me jump on that if that is okay and open 
this up to everybody else as well, whoever might have a 
response in my last minute or so here. Dr. Paul Spudis' written 
testimony from last year's hearing notes the shift to the 
flexible path for human exploration that focused on the 
development of technology rather than a destination. What would 
you say were the most important exploration technology 
achievements of the past three years and how do you think these 
achievements would have differed if our space program were 
guided by a specific destination? Any of you have any thoughts?
    Dr. Pace. I think--first of all, I don't think there is any 
disagreement that NASA needs to develop new technology. There 
is a ton of new technology needs that should be put--made 
available to us and NASA is working a lot of them. The problem 
is, is how do they prioritize, you know, those technologies 
because you can't do everything at once? So then the question 
is, is how do you prioritize? What is the policy objective? 
When people talk about destinations, they often do it in terms 
of a physical destination, you know, Moon, Mars, asteroid, as 
if it is either/or.
    And I think what you are hearing from this group is, well, 
we sort of want all of the above but the destination we are 
trying to get to is not just a physical destination in space. 
It is actually a capability for the country, the ability to 
operate anywhere we want in cislunar space, the ability to lead 
other countries in exploration missions beyond Earth orbit. And 
so in order to prioritize those technologies, we need to set 
costs and schedules and risks and tradeoffs and decide what is 
more important than something else.
    That is where the longer-term context and plan comes in. 
And I think that if we have a larger policy objective of where 
we want the United States to be, the physical destinations fit 
into a sequence. You can then say and these are when we need to 
hit various technology milestones.
    One of the great flaws of the current capability-driven 
approach and flexible path and all that sort of thing is that 
people then argue for whatever their favorite technology is and 
it is not against an external metric, an external customer that 
you are trying to meet. It is people just working on really 
neat and important things. And in a fiscally constrained 
environment, that isn't really terribly helpful.
    So having a policy context and then a series of 
destinations as policy destinations is probably the most 
efficient way to spend taxpayer dollars and prioritize those 
technology investments.
    Mr. Hultgren. I appreciate that. Again, thank you all so 
much. Thanks, Chairman. I yield back.
    Chairman Smith. Okay. Thank you, Mr. Hultgren.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    General Lyles, you mentioned in your comments earlier that 
NASA--that Congress was due or owed a technology roadmap from 
NASA, and then you also said in your opinion there was four 
national needs: energy, climate, health, and environment. Where 
did you get that outline?
    General Lyles. Congressman, my first comment about old--the 
technology roadmaps sort of stem from the research and study 
done by the National Academies a couple years ago and provided 
to NASA. It laid out technologies that we thought were critical 
towards achieving the objective and the goals somewhat 
articulated by Dr. Pace and Dr. Magnus of space exploration and 
making sure we understand the kind of things that we need to 
address if this Nation is going to advance towards that broader 
goal of achieving and maintaining superiority in space 
exploration.
    So the--I think since we provided it--we the Academy have 
provided that to NASA and it really is the underpinning for the 
technology things that NASA is doing today. I think the 
Congress needs to better understand what it is they are doing 
and what was provided to them from the National Academy of 
Engineers.
    Mr. Weber. Okay. Well, the reason I am asking is it seems 
to me that there is a fifth item that is probably missing. You 
don't--and I don't know if you all considered it or discussed 
it, but you didn't mention national security and I would argue 
that some of the things we gain by having an understanding of 
space and space superiority, you know, as you know, in military 
the--whoever occupies the high ground has the upper hand and 
there is no higher ground in space.
    General Lyles. Well, Congressman, I agree with that 1,000 
percent. In our report that I was quoting from about those 
other national needs, national security is the first one. I 
didn't mention it in my notes but it is the first one. And, as 
an example, other things like health, environment, climate, et 
cetera, believe me, I resonate with the need to ensure that 
whatever we are doing in space underpins and supports our 
national security needs for the United States.
    Mr. Weber. Okay. Well, I just wanted to ask that because I 
wrote those down when you said that and I thought it was 
conspicuous by its absence. And I agree with you that Congress 
needs to understand--there are a lot of things Congress needs 
to understand--better understanding of.
    And then you also said that Congress needs to look at NASA 
from an enterprise perspective, and you said the aeronautic 
needs for the Nation and the space exploration needs for the 
Nation, but again, you didn't say anything about national 
security. So I want to make sure in this context that we make 
that clear that it is important for our national security.
    General Lyles. Congressman, I agree with you 1,000 percent. 
As I mentioned earlier, most of my career in the Air Force 
dealt with developing space programs, and believe me, they were 
all focused on national security needs.
    Mr. Weber. Okay. And then, Dr. Pace, you said earlier that 
what is needed is an analysis of a cost schedule and a risk 
analysis. Define risk.
    Dr. Pace. Well, there are a number of different aspects of 
risk. I mean the first and probably the most important one is 
what do we know about the risks to human life? That is can we 
provide informed consent for the people who are going to be 
volunteering to go out there? We have some missions upcoming, 
one year long expeditions aboard the space station that I think 
will give us some more information about long-term human 
spaceflight that will be helpful. So human life I think is 
number one.
    The next one is sort of really cost and schedule risk. That 
is what is the probabilities of hitting certain cost and 
schedule targets? Cost estimates are always probabilities. They 
are never just point estimates. There are certain confidences 
that you have and you can trade cost and schedule and risk with 
each other. That is if you want to put more money into 
something, you can buy schedule. If you don't have that money 
and you need to stretch schedule, you can do that, so those 
kind of tradeoffs.
    What is interesting about the 2021 flyby is the orbital 
mechanics pretty much set that schedule. And so within an 
affordable profile, can we hit that schedule with some 
confidence? Now, the time between 1961 and 1968 when we flew 
Apollo 8 around the Moon was seven years, but that was in a 
very different budget environment. On the other hand, we know a 
lot more today than we did back then----
    Mr. Weber. Well, and that----
    Dr. Pace. --so that is the trade.
    Mr. Weber. That is getting to the heart of my question, 
too, when you are talking about budget analysis and risk 
analysis, of course Congress working on two year terms per 
session, has there been discussion or thought about what is the 
optimal--pardon me--budget? In other words, we would love for 
NASA to have a clear, concise goal and without the politics of 
having the budget go up and down all the time, which I 
understand we are constrained by the money that we have as 
well. Is it feasible to say that we ought to be able to set a 
policy area of four years, six years. I mean, certainly, we 
don't want--the longer, the better. What do you foresee? Can we 
set a plan in motion and maintain it for four to six years 
budgetarily speaking or is that just--pardon the pun--pie in 
the sky?
    Dr. Pace. Well, I think it is actually perfectly possible 
to set relatively stable, long-term budget plans if they are 
tied to long-term national interests. We have been able to 
support science programs over fairly long-term. We support 
military space programs over very--fairly long-term. So it is 
really only in the area, I think, of human spaceflight where we 
have seen a large and I think excessive amount of volatility 
because it hasn't been tied to enduring national interest, 
whether national security, international diplomatic outreach, 
scientific ties, or even promotion of private sector sets of 
interests, economic interests. I think there are these 
interests out there. I think we can make a more explicit 
linkage. And if we did that, we would find it easier--not easy 
but easier--to sustain stable budgets, as we have in many other 
areas of space.
    Mr. Weber. Okay. And I am past my time. Thank you, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from Florida, Mr. Posey, who represents 
Kennedy Space Center.
    Mr. Posey. Thank you very much, Mr. Chairman.
    One of the fears that I have is that we even regress 
further. You all are familiar, I am sure, as this Committee is, 
with over two dozen multibillion-dollar programs to nowhere 
that were started by one administration and stopped by another 
or started by one Congress and stopped by another. And so, you 
know, the first thing I think we all try and--tried to do is do 
no harm, first of all, and stop us from regressing.
    Someone mentioned earlier that our share of the budget for 
space now is about 1/2 of one percent, which is correct. The 
public perception on survey after survey is it is around 20 
percent of the total budget. So, you know, if we could get just 
half as much as the public thinks we are getting, we could 
really make some big strides in space.
    One other thing I think we need to note when we try and 
compare Apollo with missions of today is, you know, they used a 
slide rule during Apollo. They didn't have the computer 
capabilities that we have now. The IBM computer mainframe is 
maybe 1/3 as big as this room and, you know, you can buy a 
little credit card-sized calculator at Wal-Mart for five bucks. 
It will do more than that would back in the day. So we have 
advanced greatly in the technological ways, and I think it is 
only a matter of money that will determine how far and how fast 
we can go in our manned space program.
    But what I would like to ask for you--from each of you 
briefly, if you would feel comfortable with it is, is to share 
with us what you think the order of milestones, missions, 
targets should be in the next 5 to 10 years. Like if you think 
we should go back to the Moon, if you think we should go to the 
Lagrange point, you think we should have colonization of the 
Moon and then another Space Station halfway to Mars, a Mars 
flyby in '21 or '31, landing and colonization--you know, what 
order of targets would you establish if you were able to make 
those decisions? We will start with Dr. Pace and go down.
    Dr. Pace. Thank you, sir. I have been an advocate of 
returning to the Moon, international human landing on the Moon 
with international partners and also with private sector 
partners. We have a whole separate discussion about cargo 
delivery to the lunar surface that can be done in a commercial-
like manner. But the reason--and I think Mars is a longer-term 
objective with asteroids in between. The reason for that 
sequence is that the Moon provides the greatest number of 
opportunities for public and private sector partnership with 
the United States.
    The reason why I think the Mars flyby deserves a look is 
because it demonstrates a lot of technologies that are useful 
across the board. It would put the United States in a position 
of leadership, and it would--the timing of it would fit, I 
believe, within the budget profiles that we see going forward. 
We don't have enough money in the near term to support 
development of a major lunar lander. We are still developing 
SLS. We still have the ISS program. So I think from a 
programmatic and a technical development standpoint, the flyby 
fits if it is placed in a context of a larger mission. But I am 
a fan of returning to the Moon first and then moving outward.
    Mr. Posey. Thank you. General?
    General Lyles. Congressman, I am a sort of guided by the 
Augustine Committee report because I was one of the signatories 
on that and a member of that activity. We looked at options for 
our space exploration, human exploration program, whether it 
should be Mars first, Moon first then Mars, or a flexible path. 
And all of us sort of decided that the flexible path, we 
thought, was the best option for the United States given our 
technological presence today and what we need for the future. 
It gave us an opportunity to visit sites that we have never 
visited before, to extend our knowledge of how to operate in 
space, and whether you consider Lagrange points, asteroids, or 
orbiting Mars, which is one of the options that we laid out in 
our report, we think having a flexible strategy allows you to 
be able as you gain knowledge, gain technological knowledge and 
understanding, gives you the option to do any one of those we 
think is really the right answer.
    Mr. Posey. Yes. Well, I just hope we don't study our navel 
for the next two decades, that we set some targets and some 
goals and we attack it.
    Mr. Cooke?
    Mr. Cooke. I personally believe that we should have a path, 
and I was one who started the flexible path idea because we 
needed to start the SLS and Orion when I was still at NASA. 
However, once those are underway because those are two critical 
steps that you lead off with. Once you have that, you do need a 
plan because it helps you make decisions on those designs and 
even in terms of where you go and what you do. It influences 
how you design things. And so I have always thought that the 
next logical step is the Moon.
    Now, in this case, we are talking about a Mars flyby. I 
don't think that that is contradictory. It does feed forward 
and the capabilities feed forward to the next steps. This just 
happens to be a unique planet alignment that allows this 
mission in the near term, but certainly, lunar exploration----
    Mr. Posey. That is good.
    Mr. Cooke. --is important.
    Mr. Posey. Dr. Magnus?
    Dr. Magnus. So, again, I would go to the first question, 
what is the overall goal? If the overall goal is to go to Mars 
and we are going to define what we are going to do on Mars, 
whether we are going to establish an outpost there to do 
specific kinds of science and kinds of exploration, then you 
backup from that, what is the logical set of progressions, 
steps you need to take to get there and what are the 
capabilities and the operational parameters you need to develop 
and demonstrate to build up that capability to go to Mars and 
do whatever it is you are going to do there?
    So we have got this great orbiting platform called the 
International Space Station. We can do a lot of technology 
demonstration and development there. There are probably things 
that we cannot do on the space station. We have the Moon in our 
backyard three days away. If you are going to test out 
technology that you want to demonstrate to reduce the risk of 
going further away, you are going to test it in your backyard 
first.
    Whether you stay on the Moon and establish a settlement 
there, it depends upon how that fits into your long-term goals, 
but I could argue if we establish a beachhead on the Moon to do 
technology demonstration, why would we not encourage our 
private enterprise partners to come and establish work there as 
we continue to move that boundary out? I mean think of it as an 
expanding bubble with the government leading the edge of that 
bubble with private enterprise and industry filling in behind 
us. That is what we are supposed to do as the government is all 
of these hard things and break down these barriers. So you go 
to the Moon, you test what you need to do on the Moon, but as 
the government, you keep pushing that boundary. Our planet 
should keep pushing that boundary.
    Do you go to cislunar space? Perhaps if there are 
capabilities you need to develop there. Do you do a flyby of 
Mars? Perhaps if that demonstrates the buildup of that risk 
reduction and the technology demonstration you need to do in 
order to put people on the surface. So it builds out very 
logically and it is in a higher strategy of how you bring 
everybody on with you internationally and in the private 
enterprise. That is how I would approach it.
    Mr. Posey. Okay. Thank you. All good answers. Thank you, 
Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Texas, Mr. Stockman, is recognized.
    Mr. Stockman. Thank you, Mr. Chairman.
    I have two questions. I know I don't have a lot of time so 
I am going to put them together and they are disjointed 
somewhat. I was interested in the solar electric propulsion and 
I think, Mr. Cooke, you could probably address this in terms of 
how it could change the dynamics of space. And the other 
question I have is the abdication of the United States it--an 
apparent abdication to allow the Chinese to go forward with 
this space program. If we continue on the path where we are not 
in the forefront of space, how could that lack of leadership 
set the dynamics for our country and our economy?
    Mr. Cooke. I can address the--actually both questions in 
my--from my own view. I believe that solar electric propulsion 
is one of the technologies that can have a big impact. When we 
go to Mars, the masses are pretty big for sending a crew there. 
And studies that we have done in the past, solar electric 
propulsion, plasma engines, nuclear thermal, nuclear electric 
are propulsion techniques and capabilities, technologies that 
reduce the amount of fuel that you have to put in low-Earth 
orbit in order to go. It actually can reduce the mission mass 
for the human mission to the Mars surface and back by a factor 
of two, in terms of 1/2 of the mass it would take with current 
chemical engine technologies would be needed if you used one of 
these advanced technology approaches. So electric propulsion or 
one of those is actually an enabling capability for a Mars 
mission.
    Now, I believe that--personally believe that our Nation 
needs to remain a leader in space--in human spaceflight. I 
believe that in history the nations that have retreated from 
leadership in exploration have retreated from the world 
forefront, and you can name countries like Spain and Portugal. 
Great Britain ruled the seas one point. It no longer does. They 
were explorers. Exploration goes with a national drive and 
incentive and motivation that is sometimes maybe looked at a 
little disconnected from exact needs on Earth or in society, 
but it is something that great nations do. So I think if we 
retreat from these kind of aspirations, we will retreat in the 
world.
    Mr. Stockman. General Lyles?
    General Lyles. I certainly agree with, I think, everything 
that Doug just articulated, particularly about the specific 
solar electric propulsion. That has been one of the key areas 
that the Department of Defense has worked on in its space 
technology programs because of the obvious benefits to not just 
human spaceflight, which is not our regime in DOD, but even to 
unmanned activities and space station--keeping--a bunch of 
other things that we need for national security space. So I 
agree with that.
    On the second comment, I am a 100 percent believer in 
making sure that we the United States maintain our leadership 
in space, maintain our leadership in aviation and aeronautics, 
which is why I mentioned the other A in NASA in my earlier 
comment. To me, if we don't, we literally run the jeopardy of 
becoming a second-rate power, too, which is something we do not 
want at all.
    Mr. Stockman. I have--I am going to add my own two cents in 
there. There are some projections that China is going to exceed 
us in the next 15 years militarily where NASA and the military 
seem to be separated. There is a wall there--somewhat of a wall 
there. There is some crossover, but the PLA and their space 
program is very closely tied. As you know, they shot down a 
satellite. And I am alarmed at the rate at which the Chinese 
are accelerating their expenditures and their technology.
    And I agree; historically, throughout world history, the 
people that abdicate the science of a venture advocate their 
responsibility as a world leader, and I really dread the day 
that we see that China supplants the United States, which is 
not a democratic country.
    General Lyles. But, Congressman, let me just add, I agree 
with you 1,000 percent there. I think as the other witnesses 
can attest and certainly some of the Members of the Committee, 
there is probably greater cooperation between the military and 
NASA, civil space and NASA security space than people know. But 
I am a big advocate of the--that there needs to be more, 
particularly in the area of technology and technology 
development in space. I constantly remind people that the 
missions may be different but the physics are the same and 
there is a lot more that could be done between the two agencies 
to, in some respects, leverage their combined budget.
    Mr. Cooke. May I add one comment? There is a strong 
connection in terms of our aerospace industrial base. Both 
military and NASA use the industrial base that supports both, 
and it is somewhat underutilized at times and they are 
downsizing. It is--all of this--it is important to have that 
capability as a country. It is one of our strengths.
    Mr. Stockman. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Stockman.
    Does the gentleman from Texas, Mr. Weber, want to be 
recognized again?
    Mr. Weber. Please.
    Chairman Smith. The gentleman is recognized for a minute.
    Mr. Weber. Thank you. I am fascinated by the electric--
solar propulsion. Are there private industries doing it? You 
said half--50 percent of the fuel would be less if you went 
solar propulsion, Mr. Cooke? Are there private industries doing 
this as well?
    Mr. Cooke. Industry is definitely involved in development 
of this technology, and the technology in electric propulsion 
is being flown. It has flown on science missions. Deep Space 1 
and Dawn were science missions that it has flown on. It is 
being evolved to higher levels of power.
    Mr. Weber. Would you consider this a game-changing 
technology?
    Mr. Cooke. I would consider it a game-changing technology 
when it may make the difference between human missions to Mars 
and not going to Mars.
    Mr. Weber. Okay. And should this be a priority for NASA?
    Mr. Cooke. It should be one of the key technologies that is 
pursued. I agree.
    Mr. Weber. Okay. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Weber.
    Oh, I am sorry, Mr.--Dr. Pace, do you want to be 
recognized?
    Dr. Pace. Please, sir.
    Chairman Smith. Yes.
    Dr. Pace. I just wanted to add on to Mr. Cooke's comments. 
When we had the government shutdown last year in October, there 
was a conference happening at my university on electric 
propulsion. And so without--with no government attendees there, 
we still had 400 people from around the world all from 
industry, academia because electric propulsion is generally--
solar electric propulsion is a bit more advanced but electric 
repulsion is something that the communications satellite 
industry is very, very interested in. It is something that will 
be changing the future of the market. It will be affecting 
launch services. And so there is certainly a lot of excitement 
in private interests, certainly in academia and industry right 
now on that technology and applying it.
    Okay. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Dr. Pace.
    And the gentlewoman from Maryland wants to be recognized 
and is recognized.
    Ms. Edwards. Thank you, Mr. Chairman.
    And just really briefly, I just want to express to the 
panel that I think that this has been an excellent panel of 
witnesses, and I always like it when I can come to a hearing 
and actually learn some things and I really did today. And so I 
really appreciate your testimony.
    I appreciate the Chairman and the Ranking Member calling 
this hearing because I would like us to be more invested as a 
committee and a Congress and really to help do what Dr. Magnus 
described, which is set of vision, a strategy, something that 
all of us as Americans can really embrace about our space 
program, and I think that you all have done an excellent job 
today of helping to crystallize our thoughts around that. So 
thank you.
    Chairman Smith. Yeah. Thank you, Ms. Edwards.
    And we have no more Members to ask questions, so that does 
conclude our hearing, but I too want to thank the witnesses for 
being here today and you have contributed significantly to our 
understanding of the pros and some of the risks involved with 
the Mars flyby and everybody seems to consider it to be a 
viable option. That is encouraging. And, of course, we need to 
have that overall strategic plan, Dr. Magnus, as you mentioned, 
as well. And we hope NASA can produce that. Dr. Pace, you 
mentioned we might be able to get that in just a matter of 
months, and of course that would be helpful as well.
    More than anything, we just need for NASA to come--to pick 
missions that--and fund missions that are going to contribute 
to our knowledge, that are going to inspire the Nation, and we 
hope to get to that point.
    So thank you all again for being here, much appreciated. We 
stand adjourned.
    [Whereupon, at 11:42 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Scott Pace

[GRAPHIC] [TIFF OMITTED] T8136.054

Responses by General Lester Lyles (ret.)

[GRAPHIC] [TIFF OMITTED] 

Responses by Mr. Douglas R. Cooke

[GRAPHIC] [TIFF OMITTED] 
Responses by Dr. Sandra Magnus

[GRAPHIC] [TIFF OMITTED] 

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

 Submitted statement for the record by Representative Donna F. Edwards
[GRAPHIC] [TIFF OMITTED] T8136.012

[GRAPHIC] [TIFF OMITTED] T8136.013

  Letter from Explore Mars expressing their support for a short-term 
      flyby mission to Mars, submitted by Chairman Lamar S. Smith

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
